                                                                        DOT OIG
                                                                FY 2010 Recovery Act Plan
                               OIG Name: U.S. Department of Transportation, Office of Inspector General


                                          Conduct timely oversight of DOT ARRA funds while focusing on three major challenges facing the Department: (1) ensuring
            OIG Broad Recovery Act Goals: that DOT's grantees properly spend ARRA funds; (2) implementing new accountability requirements and programs
                                          mandated by ARRA; and (3) combating fraud waste, abuse, and mismanagement.
         OIG Broad Training and Outreach Conduct fraud awareness and prevention activities to alert DOT staff and grantees, including contractors, at all levels of
                     Recovery Act Goals: government on how to recognize, prevent, and report suspected fraud.

                                          DOT OIG is using a three-phase approach to conduct audit and investigative work by emphasizing high-risk areas and
                                          promptly report results: Phase 1--conduct a comprehensive review of prior reports and testimonies to identify major
                                          challenges facing DOT with the implementation of ARRA and identify actions DOT should take now to address known
                                          challenges--(COMPLETED); Phase 2--conduct a systematic scan of DOT agencies receiving ARRA funding to examine
OIG Recovery Act Risk Assessment Process: vulnerabilities in program management and planning that could impede DOT's ability to effectively oversee ARRA-funded
                                          projects and meet new statutory and OMB requirements--(COMPLETED); and Phase 3--Target for audit and investigation,
                                          specific DOT programs and projects, emerging as vulnerable/high-risk areas as a result of the scan completed; proactive
                                          investigations initiated; and fraud prevention outreach and training conducted in Phase 2--(ONGOING). We will promptly
                                          notify DOT, Congress and the public through ARRA Advisories and reports, of DOT actions needed to achieve ARRA goals.

      OIG Staff Dedicated to Recovery Act
                                          As of March 31, 2010, DOT OIG had 41 FTE dedicated to ARRA
                               Oversight:

                 OIG Recovery Act Funds: $20,000,000 (FY 09 -September 30, 2013)
      Expiration Date of OIG Recovery Act
                                          09/30/2013
                                  Funds:

     OIG Recovery Act Funds Allocated to
                                           To Be Determined (As of March 31, 2010, DOT OIG has not allocated any ARRA funds to contracts).
                               Contracts:
       Purpose of Recovery Act Contracts: Not Applicable
 Types of Recovery Act Contracts Awarded
                                           Not Applicable
                                  to Date:



                                                                                                                                          DOT OIG Recovery Act
                                                                                                                                                     Overview
                                                                                                                                            Updated 04/30/10
                                              DOT OIG Recovery Act Published Products

DOT OIG Recovery Act Audit Reports


Issued             Title/Link


                   American Recovery and Reinvestment Act of 2009: Oversight Challenges Facing the Department of
3/31/2009
                   Transportation

                   Status of Operating Administrations' Processes to Conduct Limited Quality Reviews of Recovery Act Recipient
10/6/2009
                   Data

                   Department of Transportation's Implementation of the American Recovery and Reinvestment Act Continued
11/30/2009
                   Management Attention is Needed to Address Oversight Vulnerabilities

                   Department of Transportation's Suspension and Debarment Program Does Not Safequard Against Awards to
1/7/2009
                   Improper Parties


2/23/2010          Recovery Act Data Quality: Errors in Recipients' Reports Obscure Transparency


DOT OIG Recovery Act Advisories


Issued             Title/Link


5/18/2009          Department's Suspension and Debarment Program


6/22/2009          Sampling of Improper Payments in Major DOT Grants Programs


                   Federal Aviation Administration's Award of the Recovery Act Grant Funds to Airport Improvement Program
8/6/2009
                   Projects by August 5, 2009
                                                                                                                                 DOT OIG Recovery Act
                                                                                                                                   Published Products
                                                                                                                                   Updated 04/30/10
                                                                                       DOT OIG
                                                                            FY 2010 Recovery Act Audit Plan

                                                                                                                                                                   Expected
                                                                                                                                                                    Quarter
                                                                                                                                                                                   Link to Announcement
#        Program Area           Project Title                           Background                                               Objective                        Work Begins
                                                                                                                                                                                   Memorandum or Report
                                                                                                                                                                     (Date
                                                                                                                                                                   Initiated)

                                                      FRA received $8 billion in ARRA funding for awarding
          FRA Capital
                                                    grants to States to develop high-speed rail corridors and    (1) Identify locations where substantial delays
         Assistance for
                                                     improve intercity passenger rail service. In our March consistently occur (i.e. "bottlenecks") on Amtrak routes;
        High-Speed Rail
                           Intercity Passenger Rail    31, 2009 report, "ARRA 2009: Oversight Challenges       (2) identify statistically significant determinants of Q3 FY 09    Audit of Intercity Passenger
1        Corridors and
                             Service Bottlenecks         Facing the Department of Transportation,” we         Amtrak delays; and (3) assess the degree of influence (05/05/09)     Rail Service Bottlenecks
           Intercity
                                                      identified FRA's new passenger rail program as a risk    each determinant has on Amtrak delays overall, by
        Passenger Rail
                                                    since FRA has not previously implemented a large-scale                   route, and at bottlenecks.
            Service
                                                               high-speed passenger rail program.

                                                Our ARRA Advisory issued August 6, 2009, reported that
                             FAA's Process for  FAA may have selected some projects with questionable                                                                              Audit of FAA’s Process For
       FAA Grants-in-aid                                                                               Review the effectiveness of FAA’s selection process for      Q4 FY 09
2                          Awarding ARRA Grants economic merit for ARRA funds. Such projects may not                                                                                Awarding Recovery Act
         for Airports                                                                                       awarding ARRA grants for airport projects.             (09/03/09)
                            to Airport Projects comply with ARRA requirements, such as providing long-                                                                             Grants For Airport Projects
                                                                    term benefits.


                                                    FHWA has identified LPA projects as high programmatic
                                                    risk because many of the state transportation agencies
                           Oversight of Federal-aid
                                                     do not provide sufficient oversight over those projects                                                                    Audit of FHWA and State
        FHWA Highway          Highway Projects                                                               Assess FHWA’s oversight of the effectiveness of FHWA's
                                                     administered by the local units of government. In the                                                           Q1 FY 10   DOT Oversight of Projects
3        Infrastructure     Administered by Local                                                               process to improve state oversight of Local Public
                                                      case of the ARRA program, FHWA has developed an                                                               (10/22/09) Administered By Local Public
           Investment      Public Agencies Projects                                                                                Agencies.
                                                     ARRA oversight plan using National Review Teams and                                                                                Agencies
                                    (LPA)
                                                      Program Accountability Results reviews designed to
                                                    review ARRA program spending including LPA projects.


                                                    ARRA includes an emphasis on the use of fixed-price
                                                  contracts and competitive procedures to the maximum
                                                                                                                                                                            Audit of FHWA's Federal-Aid
                            FHWA’s Oversight of    extent practicable, which applies to Federal-aid state
        FHWA Highway                                                                                        Assess the adequacy of FHWA’s oversight of state                Highway Program Oversight
                           Federal-aid State ARRA   contracts. FHWA's ARRA risk assessment identified                                                             Q1 FY 10
4        Infrastructure                                                                                   Department of Transportation contracting practices for             of Procurement Practices
                              Contract Award       state contract award and administration issues as risk                                                        (10/28/09)
           Investment                                                                                                   awarding ARRA contracts.                             For Recovery Act-Funded
                                 Practices.           areas. Also, our scan work found that state DOT
                                                                                                                                                                              Contracts At State DOTs
                                                  workforces were often capped or shrinking as workload
                                                                    grows under ARRA.




                                                                                                                                                                                 DOT OIG Recovery Act
                                                                                                                                                                                      Audit Work Plan
    Page 1 of 6                                                                                                                                                                    Updated 04/30/10
                                                                                         DOT OIG
                                                                              FY 2010 Recovery Act Audit Plan

                                                                                                                                                                         Expected
                                                                                                                                                                          Quarter
                                                                                                                                                                                       Link to Announcement
#        Program Area            Project Title                            Background                                                 Objective                          Work Begins
                                                                                                                                                                                       Memorandum or Report
                                                                                                                                                                           (Date
                                                                                                                                                                         Initiated)


                                                   FHWA will utilize National Review Teams as part of its
                                                      ARRA oversight strategy to conduct independent
                                                     evaluations of State processes and procedures and           Evaluate the effectiveness of FHWA's National Review
        FHWA Highway
                           FHWA's National Review      assessments of project compliance for high-risk            Teams in conducting national oversight of highway     Q1 FY 10        Evaluation of FHWA’s
5        Infrastructure
                                  Teams              operations. FHWA expects the reviews to provide            funds and mitigating risks posed by the implementation (11/02/09)       National Review Team
           Investment
                                                  national consistency, expertise, and knowledge sharing.                               of ARRA.
                                                    This is a new approach for FHWA which traditionally
                                                  relies on it 52 Division offices for project-level oversight.


          FTA's Major                                  In 2007, we issued a baseline report on this project
        Projects - Dulles                           that outlined key concerns related to the project's cost
                           FTA's Oversight of the                                                                Evaluate the effectiveness of FTA's oversight of the               Audit of FTA’s Oversight of
       Corridor Metrorail                             and schedule estimates, funding, and management.                                                                   Q1 FY 10
6                         Dulles Corridor Metrorail                                                             Dulles Corridor Metrorail Project and assess potentia              the Dulles Corridor Metrorail
        Project - Phase I                           The project involves a $900 million Federal investment                                                              (11/19/09)
                                   Project.                                                                                       safety concerns.                                            Project
           (the Dulles                              and accelerated $77 million in payments authorized by
             Project)                                                        ARRA.
                                                       ARRA requires DOT grant recipients to periodically
                              FAA's Job Creation
       FAA Grants-in-aid                            report “the number of direct, on-project jobs created or
                             Under the American                                                                 Determine whether (1) AIP and F&E projects funded
        for Airports and                            sustained by the Federal funds provided for projects. . .                                                          Q1 FY 10       Audit of FAA’s Job Creation
7                               Recovery and                                                                  under ARRA are preserving and creating jobs and (2) the
          Facilities and                             and, to the extent possible, the estimated indirect jobs                                                         (11/19/09)       Under the Recovery Act
                             Reinvestment Act of                                                                 reporting of job data satisfies ARRA requirements.
           Equipment                                    created or sustained in the associated supplying
                                     2009
                                                                           industries.”
       All ARRA-funded
                                                  Recently, intruders brought down DOT's principal             Determine if (1) DOT's recovery Websites and database
        programs and
                                               website, which contains ARRA information. In addition,          systems are properly configured to minimize the risk of
        projects within Security Controls Over                                                                                                                          Q1 FY 10 Review of Security Controls
8                                               inadequate configurations may allow for intruders to           cyber attacks, and (2) access to recovery Websites and
       FAA, FHWA, FRA, ARRA Related Websites                                                                                                                           (12/08/09) Over Recovery Act Websites
                                                   deface, alter or remove information from DOT's               database systems are adequately controlled to ensure
        FTA, OST, and
                                                                  recovery websites.                                 accountability and integrity of ARRA data.
            MARAD




                                                                                                                                                                                    DOT OIG Recovery Act
                                                                                                                                                                                         Audit Work Plan
    Page 2 of 6                                                                                                                                                                       Updated 04/30/10
                                                                                        DOT OIG
                                                                             FY 2010 Recovery Act Audit Plan

                                                                                                                                                                          Expected
                                                                                                                                                                           Quarter
                                                                                                                                                                                        Link to Announcement
#         Program Area          Project Title                            Background                                                 Objective                            Work Begins
                                                                                                                                                                                        Memorandum or Report
                                                                                                                                                                            (Date
                                                                                                                                                                          Initiated)

                                                                                                                Assess the Department's oversight of Recovery Act
          ARRA-funded                               Section 1512 of the Recovery Act requires recipients of
                                                                                                               recipient reporting to determine whether, during the        Q1 FY 10
         programs and                                 Recovery Act funds to submit reports on the use of
                             DOT's Oversight of                                                               first Section 1512 reporting cycle in October 2009, the    (12/11/09)    Recovery Act Data Quality:
         projects within                              those funds. OMB guidance required each Federal
9                          Recovery Act Recipient                                                              Department (1) identified inaccurate data or missing         Report     Errors in Recipeint Reports
        FAA, FHWA, FRA,                             agency to conduct limited quality reviews of recipients
                                Reporting                                                                        recipient reports, (2) identified the cause(s) of the    Issued on      Obscure Transparency
         FTA, OST, and                               data and notify recipients of two key data problems--
                                                                                                               inacccurate data or missing recipient reports, and (3)      2/23/10
            MARAD                                     material omissions and significant reporting errors.
                                                                                                                            mitigated the causes/errors.

        All ARRA-funded
                                                                                                               Determine if (1) questioned costs identified in Single
         programs and                           DOT Modal Administrations are required to render a                                                                                         Audit of DOT's
                           Implementing Single                                                                Audits are properly followed up by the DOT Operating
         projects within                       management decision on Single Audit findings within 6                                                                      Q1 FY 10   Implementation of Single
10                       Audit Recommendations                                                                  Administrations, and (2) internal control problems
        FAA, FHWA, FRA,                        months of receipt of the audit report according to OMB                                                                    (12/22/09) Audit Recommendations and
                            and Cost Recovery                                                                 (material weaknesses and significant deficiencies) are
         FTA, OST, and                                     Circular A-133 section 405 (d).                                                                                                 Cost Recovery
                                                                                                                 corrected by DOT grantees in a timely manner.
             MARAD

                                                      FRA received $8 billion in ARRA funding for awarding
           FRA Capital
                                                    grants to States to develop high-speed rail corridors and
          Assistance for
                                                     improve intercity passenger rail service. In our March
         High-Speed Rail      High Speed Rail                                                                 Determine best practices in preparation of ridership and                  Review of High Speed Rail
                                                       31, 2009 report, "ARRA 2009: Oversight Challenges                                                                Q2 FY 10
11        Corridors and    Financial Forecasting                                                               revenue forecasts, cost estimates, and public benefits'                 and Intercity Passenger Rail
                                                         Facing the Department of Transportation,” we                                                                  (01/04/10)
            Intercity         Best Practices                                                                                        valuations.                                           Forecasting Practices
                                                      identified FRA's new passenger rail program as a risk
         Passenger Rail
                                                    since FRA has not previously implemented a large-scale
             Service
                                                               high-speed passenger rail program.

                                                     ARRA required FHWA to ensure states receiving ARRA
                            FHWA Oversight of                                                                 Determine whether FHWA’s oversight of selected ARRA
         FHWA Highway                                  funds adhere to all Federal-aid highway program                                                                         FHWA's Oversight of Higher
                            Higher Dollar Value                                                                projects has resulted in project compliance with key  Q2 FY 10
12        Infrastructure                             requirements. Failure to fully meet key requirements                                                                      Dollar Recovery Act Highway
                           Recovery Act Highway                                                                 Federal-aid highway cost, quality, and completion   (01/20/10)
            Investment                                on higher dollar value projects could impact project                                                                               Projects
                                 Projects                                                                                         requirements.
                                                              cost, quality, or timely completion.




                                                                                                                                                                                      DOT OIG Recovery Act
                                                                                                                                                                                           Audit Work Plan
     Page 3 of 6                                                                                                                                                                        Updated 04/30/10
                                                                                          DOT OIG
                                                                               FY 2010 Recovery Act Audit Plan

                                                                                                                                                                          Expected
                                                                                                                                                                           Quarter
                                                                                                                                                                                        Link to Announcement
#         Program Area            Project Title                            Background                                                 Objective                          Work Begins
                                                                                                                                                                                        Memorandum or Report
                                                                                                                                                                            (Date
                                                                                                                                                                          Initiated)


        FTA Transit Capital
                                                     Several very large transit projects have already received
         Assistance, Fixed                                                                                      For select major transit projects receiving ARRA and
                                                         ARRA funding, both New Starts and other funding,
            Guideway        FTA's Oversight of Major                                                             Lower Manhattan Recovery funds in the New York                          FTA's Oversight of Major
                                                     including the Fulton Street Transit project. This project                                                            Q2 FY 10
13        Infrastructure     Transit Projects in the                                                           region (1) evaluate FTA’s oversight of the projects and                  Transit Projects in the New
                                                       has already experienced significant cost overruns and                                                             (03/25/10)
         Investment, and       New York Region                                                                     (2) assess whether applicable ARRA goals and                                 York Region
                                                       schedule delays, and prior audit work has shown that
        Capital Investment                                                                                                  requirements are being met.
                                                      larger projects are particularly vulnerable to problems.
              Grants


                                                       FRA received $8 billion in ARRA funding for awarding
           FRA Capital
                                                     grants to States to develop high-speed rail corridors and Determine whether the access agreements (1) comply
          Assistance for
                              High-Speed Rail And     improve intercity passenger rail service. In our March with the requirements set forth in the Passenger Rail                       FRA High-Speed Rail and
         High-Speed Rail
                            Intercity Passenger Rail    31, 2009 report, "ARRA 2009: Oversight Challenges        Investment and Improvement Act of 2008; and (2)          Q3 FY 10        Intercity Passenger Rail
14        Corridors and
                             Infrastructure Access        Facing the Department of Transportation,” we          adequately address cost, schedule, and performance       (04/12/10)        Infrastructure Access
            Intercity
                                  Agreements           identified FRA's new passenger rail program as a risk goals ensuring that the High-Speed Intercity Passenger                             Agreements
         Passenger Rail
                                                     since FRA has not previously implemented a large-scale          Rail grant program benefits are achieved.
             Service
                                                                high-speed passenger rail program.

                                                  Our ARRA Advisory issued August 6, 2009, reported that
                                                    FAA has awarded grants to sponsors with multi-year
        FAA Grants-in-aid FAA's Oversight of ARRA                                                                   Review the effectiveness of FAA's process for
15                                                  histories of grant management problems. This raises                                                                   Q3 FY 10
          for Airports      Grant Expenditures                                                                          overseeing ARRA grant expenditures.
                                                   concerns regarding FAA's ability to ensure ARRA funds
                                                                 are effectively administered.

                                                 FAA's 2009 budget request reports a need for additional
                                                   technical and contracting staff to manage its Airport
                                                     Traffic Organization projects, however ATO's risk
        FAA Facilities and FAA/ATO's Staffing of    analysis submitted to OST did not identify staffing          Review FAA's staffing plans for programs receiving
16                                                                                                                                                                        Q3 FY 10
          Equipment        ARRA-Related Programs     issues. ATO provides critical enroute, navigation,                             ARRA funds
                                                  power, and terminal systems for the National Airspace
                                                  System (NAS). Without adequate staff, ARRA and non-
                                                        ARRA projects may not be timely completed.




                                                                                                                                                                                      DOT OIG Recovery Act
                                                                                                                                                                                           Audit Work Plan
     Page 4 of 6                                                                                                                                                                        Updated 04/30/10
                                                                                           DOT OIG
                                                                                FY 2010 Recovery Act Audit Plan

                                                                                                                                                                             Expected
                                                                                                                                                                              Quarter
                                                                                                                                                                                          Link to Announcement
#         Program Area           Project Title                              Background                                                 Objective                            Work Begins
                                                                                                                                                                                          Memorandum or Report
                                                                                                                                                                               (Date
                                                                                                                                                                             Initiated)

                                                        FAA has modified existing support services contracts,
        FAA Facilities and FAA/ATO's Contracts for                                                            Review FAA support services contracts utilized for ARRA-
17                                                      many of which were cost plus, instead of using fixed                                                           Q3 FY 10
          Equipment        ARRA-Related Programs                                                                               related programs.
                                                              price contracts as emphasized in ARRA.
         FHWA Highway                                     The Improper Payments Information Act requires        Evaluate whether FHWA has adequate internal controls
                              Improper Payment
18        Infrastructure                                   agencies to test for improper payments in those        to prevent and detect improper payments to grant           Q3 FY 10
                              Oversight at FHWA
            Investment                                             programs deemed susceptible.                                      recipients.
                                                                                                                   (1) Assess OST’s evaluation process to determine
                                                          In addition to increasing funding for existing DOT
                                                                                                                  whether it adhered to its own policies and applicable
        OST Supplemental         OST's TIGER              programs, ARRA created new discretionary grant
                                                                                                                laws and regulations in making $1.5 billion in selections
19        Discretionary      Discretionary Grants             programs, including $1.5 billion for surface                                                                   Q3 FY 10
                                                                                                                 and whether OST fulfilled ARRA requirements; and (2)
         Grants Program            Program                   transportation infrastructure projects to be
                                                                                                                evaluate OST's strategy for administration and oversight
                                                         administered by the Office of the Secretary (OST).
                                                                                                                                 of the selected grants.

                                                      FRA received $8 billion in ARRA funding for awarding
           FRA Capital
                                                    grants to States to develop high-speed rail corridors and
          Assistance for
                                                     improve intercity passenger rail service. In our March
         High-Speed Rail   Capability of States and                                                               Assess implementation risks associated with ARRA's
                                                       31, 2009 report, "ARRA 2009: Oversight Challenges
20        Corridors and    FRA to Plan and Manage                                                                 Capital Assistance for High Speed Rail Corridors and       Q4 FY 10
                                                         Facing the Department of Transportation,” we
            Intercity      High Speed Rail Projects                                                                    Intercity Passenger Rail Service Program
                                                      identified FRA's new passenger rail program as a risk
         Passenger Rail
                                                    since FRA has not previously implemented a large-scale
             Service
                                                               high-speed passenger rail program.


        FTA Transit Capital
                                                           ARRA includes an emphasis on use of fixed-price
         Assistance, Fixed
                               FTA’s Oversight of      contracts and competitive procedures to the maximum
            Guideway                                                                                             Assess the adequacy of FTA’s oversight of state level
                            Grantees’ ARRA Contract    extent practicable, which applies to contracts under FTA
21        Infrastructure                                                                                        contracting award practices to ensure compliance with        Q4 FY 10
                                  Award and            grants. However, FTA has no mechanism for pre-award
         Investment, and                                                                                                        laws and regulations.
                            Administration Practices   reviews of compliance with ARRA and other contracting
        Capital Investment
                                                                              mandates.
              Grants




                                                                                                                                                                                        DOT OIG Recovery Act
                                                                                                                                                                                             Audit Work Plan
     Page 5 of 6                                                                                                                                                                          Updated 04/30/10
                                                                                          DOT OIG
                                                                               FY 2010 Recovery Act Audit Plan

                                                                                                                                                                      Expected
                                                                                                                                                                       Quarter
                                                                                                                                                                                    Link to Announcement
#         Program Area             Project Title                           Background                                             Objective                          Work Begins
                                                                                                                                                                                    Memorandum or Report
                                                                                                                                                                        (Date
                                                                                                                                                                      Initiated)

                                                        ARRA provided $27.5 billion for FHWA infrastructure
         FHWA Highway          FHWA’s Oversight of                                                          Assess the adequacy of FHWA’s oversight of state level
                                                      investments and economic recovery. FHWA's ARRA risk
22        Infrastructure      Federal-aid State ARRA                                                        contract administration practices to ensure compliance    Q4 FY 10
                                                          assessment identified State contract award and
            Investment        Contract Administration                                                                     with laws and regulations.
                                                                administration issues as risk areas.


        FTA Transit Capital
         Assistance, Fixed
            Guideway                                     The Improper Payments Information Act requires      Evaluate whether FTA has adequate internal controls to
                                Improper Payment                                                                                                                    Q4 FY 10 or
23        Infrastructure                                  agencies to test for improper payments in those     prevent and detect improper payments to ARRA grant
                                 Oversight at FTA                                                                                                                    Q1 FY 11
         Investment, and                                          programs deemed susceptible.                                     recipients.
        Capital Investment
              Grants

           FRA Capital
          Assistance for
                            FRA’s Oversight of       The High-Speed Rail Program represents a major
         High-Speed Rail                                                                                   Assess the adequacy of FRA’s oversight of state level
                         Grantees’ ARRA Contract transformation for FRA--moving from a relatively small
24        Corridors and                                                                                   contracting award practices to ensure compliance with       Q1 FY 11
                               Award and          agency focused on rail safety, to a grant-making agency
            Intercity                                                                                                     laws and regulations.
                         Administration Practices           responsible for billions of dollars.
         Passenger Rail
             Service




                                                                                                                                                                                  DOT OIG Recovery Act
                                                                                                                                                                                       Audit Work Plan
     Page 6 of 6                                                                                                                                                                    Updated 04/30/10
